Department of Homeland Security
   Office of Inspector General
    Review of Costs Invoiced by the City of San 

   Francisco Relating to the Terminal 2 Checked 

    Baggage Screening Project at San Francisco 

   International Airport Under Other Transaction 

     Agreement Number HSTS04-09-H-REC123
 





      American Recovery and Reinvestment Act of 2009
 





OIG-11-104                                                August 2011
                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                          August 24, 2011

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audits, inspections, and
special reports prepared as part of our oversight responsibilities for programs, grants, and
projects administered by the department under the American Recovery and Reinvestment
Act of 2009 (Recovery Act).

This report presents the results of our audit of the costs invoiced for reimbursement by
the City of San Francisco under an agreement funded by the Recovery Act from the
Transportation Security Administration. The purpose of the agreement was to finance a
portion of the costs of modifications to San Francisco International Airport to
accommodate a checked baggage inspection system.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                  Anne L. Richards
                                  Assistant Inspector General for Audits
Table of Contents/Abbreviations
 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


    Unsupported Construction Management Costs ..............................................................3 


    Use of American Iron, Steel, and Manufactured Goods .................................................4 


Recommendations................................................................................................................5 


Management Comments and OIG Analysis ........................................................................6 



Appendices
  Appendix A:          Purpose, Scope, and Methodology.............................................................7 

  Appendix B:          Management Comments to the Draft Report .............................................9 

  Appendix C:          Major Contributors to this Report ............................................................12 

  Appendix D:          Report Distribution...................................................................................13 



Abbreviations
     CBIS                Checked Baggage Inspection System 

     DHS                 Department of Homeland Security 

     OIG                 Office of Inspector General 

     OMB                 Office of Management and Budget 

     TSA                 Transportation Security Administration
                                 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                     The Transportation Security Administration entered into an Other
                     Transactional Agreement with the City of San Francisco to fund a
                     portion of the costs to modify Terminal 2 at the San Francisco
                     International Airport to incorporate a checked baggage inspection
                     system. Under the agreement, the Transportation Security
                     Administration agreed to reimburse the city up to $15,346,800 for
                     designing, managing, and building the project. At the time of our
                     audit, the Transportation Security Administration had paid the city
                     $12,837,196 on the basis of invoices submitted through January
                     31, 2011.

                     We conducted our audit to determine whether invoiced costs were
                     allowable, allocable, and reasonable according to the funding
                     agreement and applicable federal requirements.

                     We concluded that costs of $303,474 invoiced for construction
                     management were questionable for reimbursement because they
                     were not adequately supported by the city’s accounting records.
                     Also, we believe that the Transportation Security Administration
                     needs to ensure that the city complied with the requirement for
                     buying goods purchased/manufactured in America.

                     The Transportation Security Administration agreed with our two
                     recommendations to resolve these matters. It concluded that the
                     city should repay $142,633 of the unsupported costs and said that
                     the contracting officer will verify whether the city’s vendors
                     qualify under the Buy American requirement.




              Review of Costs Invoiced by the City of San Francisco Relating to the
 

       Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

              Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                             Page 1
 

Background
                   On February 17, 2009, Congress enacted the American Recovery
                   and Reinvestment Act of 2009 (Recovery Act), in part to preserve
                   and create jobs, promote economic recovery, and invest in
                   transportation, environmental protection, and other infrastructure
                   that will provide long-term economic benefits. The Recovery Act
                   appropriated $1 billion to the Transportation Security
                   Administration (TSA) for “procurement and installation of
                   checked baggage explosive detection systems and checkpoint
                   explosives detection equipment. . . .” Of that amount, TSA
                   awarded $574,023,483 to 29 airport organizations for modifying
                   facilities to accommodate new baggage-screening equipment.

                   On March 5, 2009, TSA notified the City of San Francisco that it
                   was considering the city’s in-line explosive detection system
                   matrix for Recovery Act funding. At that point, the city had
                   already awarded a contract for renovation of Terminal 2 of San
                   Francisco International Airport that included a $32,105,580
                   subcontract for the baggage-handling system renovation.
                   Subsequently, the city estimated that TSA’s Checked Baggage
                   Inspection System (CBIS) project represented about $17,052,000
                   of the total cost. Negotiations with TSA resulted in the award of
                   Recovery Act funds of $15,346,800, which represented 90% of the
                   $17,052,000. City officials told us that the Recovery Act funding
                   allowed them to use money previously committed to CBIS for
                   other airport projects.

                   The terms and conditions for the funding are set forth in Other
                   Transaction Agreement No. HSTS04-09-H-REC123 between TSA
                   and the city, dated June 11, 2009. The agreement period is from
                   May 1, 2009, through September 30, 2011, and requires the city to
                   submit invoices for reimbursement of project costs. The eligibility
                   of project costs for reimbursement is based on the scope of the
                   agreement; Office of Management and Budget (OMB) Circular A­
                   87, as revised, Cost Principles for State, Local and Indian Tribal
                   Governments (May 10, 2004); and TSA publication Reimbursable
                   and Non-Reimbursable Costs for the Electronic Baggage
                   Screening Program, version 1.0 (June 2008). As of January 31,
                   2011, the city had invoiced $12,837,196 for construction
                   ($12,533,722) and for construction management ($303,474), which
                   it incurred from June 2009 to August 2010. Those costs
                   represented 90% of costs incurred. The agreement also includes
                   requirements for complying with OMB Circular A-133, as revised,

            Review of Costs Invoiced by the City of San Francisco Relating to the
 

     Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

            Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                           Page 2
 

                          Audits of States, Local Governments, and Non-Profit
                          Organizations, and Recovery Act provisions for submitting
                          quarterly recipient reports to the federal funding agency; paying
                          prevailing wages as determined by the Secretary of Labor; and
                          using American1 iron, steel, and manufactured goods.

                          The objective of this audit was to determine whether costs invoiced
                          by the city are allowable, allocable, and reasonable according to
                          the funding agreement and applicable federal requirements.

Results of Review
        We determined that costs of $12,533,722 invoiced for construction were
        allowable, allocable, and reasonable, and that costs of $303,474 invoiced for
        construction management were questionable for reimbursement because they
        were not adequately supported by the accounting records. Also, we concluded
        that the city complied with the requirements for submitting quarterly reports and
        for paying prevailing wages. Regarding the requirement for buying goods
        purchased/manufactured in America, we are recommending that TSA examine the
        relevant project documents to ensure that 95% of the project was built with
        American products.

        Unsupported Construction Management Costs
                 The city assigned construction management costs of $303,474 for the
                 baggage-handling system solely to the Recovery Act portion of the
                 project. The costs are for personnel services ($276,624) plus fees
                 ($26,850) provided by the city’s construction management services firm.
                 The baggage-handling system project consists of facilities to support
                 the CBIS and other baggage-handling system facilities not eligible for
                 reimbursement.

                 The time records supporting the personnel services costs indicated,
                 however, that the individual who performed-baggage handling duties
                 worked on the entire terminal renovation. In that regard, the specialist
                 who performed these duties told us that his time should have been
                 allocated between the CBIS project and the remaining baggage-handling
                 system activities. The TSA site lead confirmed that the specialist’s time
                 was not limited to the CBIS project.



1
 On October 13, 2009, TSA issued a waiver to the Buy American requirements. The waiver specifies that
at least 95% of each project be built with American-produced products and allows up to 5% of total project
costs to be used for non-American products.

                  Review of Costs Invoiced by the City of San Francisco Relating to the
 

           Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                  Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                                  Page 3
 

      OMB Circular A-87 says that “a cost is allocable to a particular cost
      objective if the goods or services involved are chargeable or assignable to
      such cost objective in accordance with relative benefits received.” In
      addition, Article IV of the agreement specifically required that the
      reimbursable costs be associated with the CBIS project. Because fees are
      based on a percentage of personnel services costs and the supporting
      records do not identify the amount of personnel services costs that should
      be allocated to CBIS, we classified the entire $303,474 for construction
      management services as unsupported.

      City officials agreed that the construction management services costs had
      not been allocated. They also said that they used a conservative approach
      for identifying and billing of costs related to the CBIS project. In
      addition, city officials believed that they had incurred other eligible
      construction management costs that had not been invoiced and that are
      sufficient to offset the questionable costs. At the exit conference, the city
      informed us that it was working with TSA to determine an equitable basis
      for distributing the baggage-handling construction management costs.

Use of American Iron, Steel, and Manufactured Goods
      Section 1605 of the Recovery Act requires the use of American iron, steel,
      and manufactured goods in the construction, alteration, maintenance, or
      repair of Recovery Act projects. The Recovery Act also authorizes the head
      of a Federal agency to waive the requirement under certain circumstances,
      such as when there are insufficient quantities of goods. Under TSA’s
      waiver of the requirement, up to 5% of total project costs may be from
      non-American sources. However, the support to demonstrate compliance
      with the requirement to use American goods was in some cases unclear or
      incomplete.

      The general contractor on the project, Turner Construction Company,
      obtained 20 letters from vendors regarding the source of the mechanical
      and control components and the electrical components the subcontractor
      used for the CBIS project. Most of the letters indicated that the goods
      were purchased, manufactured, and assembled in the United States.
      However, four letters indicated that some of the goods could have been
      made in foreign countries.

               The first letter stated that some of the goods were purchased from
               Germany and Asia but that “every carton, box, package, or pallet
               that they ship has ‘U.S. Made’ or ‘USA Performed’ content.”




        Review of Costs Invoiced by the City of San Francisco Relating to the
 

 Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

        Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                       Page 4

              The second letter stated that (1) some of the finished components
              used in the conveyors were imported and (2) some of the bulk
              conveyor belt materials used in manufacturing may have been
              imported.

              The third letter stated that “all products manufactured in [our] U.S.
              facilities meet the criteria to be included in qualified ARRA
              projects. Additionally, depending on the funding agency, products
              manufactured in our Mexican facilities may also meet the criteria
              and should be evaluated on a project by project basis.”

              The fourth letter came from a catalog page and stated that “All
              Parts, Materials, and/or Articles in this catalog in black type may
              or may not comply with the Buy American ACT and the Buy
              American Improvement ACT of 2005, if necessary please check
              with the factory.”

     City officials also provided us a summary calculation showing that about
     99.7% of all of the equipment and material components used in the CBIS
     project were made in America. Although the city’s calculation was taken
     from the schedule of values for the CBIS project, the schedule of values
     did not include the name of the vendors that provided the goods for the
     various work activities. As a result, we could not readily validate the
     city’s calculation.

     TSA officials have not examined the city’s compliance with the
     requirement to use American goods. However, on February 3, 2011, TSA
     published an administration checklist to aid contracting officials in
     determining Buy American compliance. TSA’s Director, Security
     Technology Acquisition Division, told us that TSA is developing
     procedures to implement the checklist.

     We believe that TSA should use the checklist to help determine whether
     the city complied with the Buy American requirement for the CBIS
     project. At the exit conference, TSA’s Contracting Officer told us that the
     TSA site lead may be able to do a further analysis of the city’s schedule of
     values to determine the source of the goods used in the CBIS project.

     Recommendations
              We recommend that TSA’s Contracting Officer:

              Recommendation #1: Resolve the $303,474 of unsupported costs.


       Review of Costs Invoiced by the City of San Francisco Relating to the
 

Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

       Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                      Page 5

              Recommendation #2: Review the iron, steel, and manufactured
              goods used in the CBIS project to determine whether the city fully
              complied with applicable Buy American requirements.


     Management Comments and OIG Analysis

              TSA Comments to Recommendation #1:

              TSA Concurs: Based on TSA’s share of the cost of construction, it
              determined that $160,841 of the unsupported construction
              management costs of $303,474 were allocable to TSA. TSA said
              that the $142,633 balance will be deducted from a future invoice
              from the city.

              OIG Analysis:

              The TSA decision sufficiently responds to the recommendation.
              However, the recommendation will remain unresolved until TSA
              provides us with a copy of the invoice with the $142,633 reduction.

              TSA Comments to Recommendation #2:

              TSA Concurs: TSA said that the contracting officer will verify
              that the goods used by the city complied with the Buy American
              requirements.

              OIG Analysis:

              The TSA decision sufficiently responds to the recommendation.
              However, the recommendation will remain unresolved until TSA
              provides us with evidence that it has completed the verification.




       Review of Costs Invoiced by the City of San Francisco Relating to the
 

Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

       Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                      Page 6
 

Appendix A
Purpose, Scope, and Methodology

                           The objective of the audit was to determine whether invoiced costs
                           are allowable, allocable, and reasonable according to the funding
                           agreement and applicable federal requirements. Our audit covered
                           invoiced costs of $12,837,196 for the period June 2009 to August
                           2010. This represents the total amount invoiced as of January 31,
                           2011.

                           Our tests and procedures included the following:

                                    Reviewing TSA project files, the award agreement and
                                    modifications, the Recovery Act, and TSA and OMB
                                    guidelines;
                                    Interviewing TSA officials to obtain an understanding of
                                    project operations;
                                    Examining city accounting records supporting amounts
                                    invoiced;
                                    Interviewing city officials to obtain an understanding of
                                    project management, accounting, procurement, and
                                    invoicing;
                                    Inspecting the CBIS project;
                                    Performing fraud detection procedures; and
                                    Reviewing the working papers of the certified public
                                    accountant firm that performed the Single Audit of the San
                                    Francisco International Airport for fiscal year ending June
                                    30, 2010.

                           The Single Audit of the airport was performed by KPMG and
                           included Recovery Act-funded CBIS project costs of $12,224,567
                           (or 95% of invoiced costs). The Single Audit report classified the
                           CBIS as a major program and assessed the airport as a low risk.2
                           The Single Audit report did not identify any questionable costs
                           related to the CBIS, but reported that (1) the contractor’s statements
                           of compliance with the Davis-Bacon Act were submitted late and
                           (2) the city did not appear to be in conformity with the Recovery
                           Act (Section 1512) reporting requirements. The Single Audit did
                           not classify either of these findings as a material weakness.

                           We also tested city records supporting costs invoiced to determine
                           compliance with OMB Circular A-87 and with other terms and

2
  A low-risk assessment results from the preceding two annual Single Audits with unqualified opinions on
the entity’s financial statements and the schedule of expenditures of federal awards, and no deficiencies in
internal controls which were identified as material weaknesses under the requirements of generally
accepted government auditing standards.

                   Review of Costs Invoiced by the City of San Francisco Relating to the
 

            Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                   Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                                   Page 7
 

Appendix A
Purpose, Scope, and Methodology

                      conditions of the agreement. We considered the Single Audit and
                      the city’s internal controls over the administration of TSA funds in
                      determining our audit procedures.

                      We conducted this performance review between February 15, 2011
                      and April 6, 2011, pursuant to the Inspector General Act of 1978, as
                      amended, and according to generally accepted government auditing
                      standards. Those standards require that we plan and perform the
                      audit to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based upon our
                      audit objectives. We believe that the evidence obtained provides a
                      reasonable basis for our findings and conclusions based upon our
                      audit objectives. We appreciate the cooperation of City of San
                      Francisco and TSA officials in providing the information and access
                      necessary to accomplish this review.




               Review of Costs Invoiced by the City of San Francisco Relating to the
        Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

               Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                              Page 8
 

Appendix B
Management Comments to the Draft Report


                                                                              u.s. Dtp.r1nl.tpt 01 Hllmdud ~~\lrit)'
                                                                              60.1 SCI\tlb   ~2tb   Strdl
                                                                              AdUliJOn. VI( 20598




                                                                                                                       ,
                                                                                                                       \
           JUL 1 ~ lOll
                                              INFORMATION


                                    Charles Ed"wards
                                    Acting In:;peotor. General
                                    Department o1'Homcland Securin>

      fROM:                         JOhnS.pis(Ole~. p~
                                    Adrnini~trator   ·U'
                                    The TransportaJion 'Security Adminisiralion's .(TSA) Response to
                                    the Depanment af1{otneland, Security (OHS)OfficO" of Inspector
                                    Gener.aI.~s Draft £eller"Report:" Review afCOs/:$./nvoiced.by the
                                    City. ofSan Francisco:Relating 10. 1M Termlnol.2 Checked
                                    B«ggpg~-Screening,Project (11 8m,.Francls/:o InleFnalio/1aJ Airport
                                    Under Other Transaction Agr.eemenlNtfmbf!r· H8TS04..09-'H~
                                    B:ECJ2S, For Official. Use. Only




      This memoIJUld.um 'c'onsti.tutes TSA'sibllllal Agency TesppnsC"to DRS. Offi~ ofInsp'eetor
      Oenel'8i" (OIGl draftf.etteneportentitfed, Drafj-~Jle,..Rep()l't: Revi.ew ofCosts lnvoic'ed by the
      City of$dn,F'raifcisco.Relo.Jing·to 'tlie 7!e.r.-mitJa/2 Checked Baggage Screeidhg-Projet:1 al.San
      FrQ1faLsco ];a:er.natf'onol"A:Up·or.t 'Under Other ·Transaclicm:Agre'6me.m" Number BSTSO'l:"()!l-H-
      REer2j:'" For Official Use. Only, dra Project No.. 11-112-AUD-TSA•. dated June 9','2"011. TSA
      ilPpre"Ciates the: OP'portuQi~y to rev.iew and provide comments [0 your draft report,

      Backgrpund

       As part of'the AmetjcanRecavery nnd.ReinvestmentActof2"O09'(Recavery Act), TSA was
       approprmte9~.1 billion for ·~pro.curement andlnstallati.on of checked baggage. explosives
      detection s-ystems and -checkpoint e,!=plosives .det.eetion equipment. TSA 'has .awarded more than
                                                                         It

      ·S500 million- in Recovery Act funding -[0 airport organizations for modifying- fu.cifities to
      a~o,~Pdate;new .Q~gga&.~..screeDing.equjpmeqt lhrou&.h the' Electron'ic B~ggi!-ge Sc;;re~og
      Pi:ogrem .(EBSP).




                Review of Costs Invoiced by the City of San Francisco Relating to the
 

         Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                                      Page 9
 

Appendix B
Management Comments to the Draft Report


                                                                                                                   2



       One Recovery Actawaw was 10 the CitY ofSlln Francisco (lhe City) for a Checked Baggage
      ;fospectionSysteril (CBISJ atSanFraru:is.co lntematiana! Airport (SFo.) tb,rougb @:QlheJ
       TransactionA~eement (OTAJrdated .June II, 2009. The City lmdpreviously' awarded ~.teffi1lnal
      renovation prOject at.SFO InwhicljTSA was not Inval.ed Ibm iIlcludelIa '$3'l,1 05,5~O' .
      subcontract for tbe bag.gag,,"hanilling system renovation. Through the OTA, TIlA. waS:llble 10
      ·provideR~cQvc;!;ry"Ac:t.   fundin-g for the CBIS ·portioR.ofthe project. The. Ci~y if:sti"trmted that the
      CBIS' projeolrepreseoted. approximatcily S"·17;052~OOO. of the tota!·cost. As.ofJanuary 3:1 ,20 1l.,
      theCity!\ad .invoiced .$12,831,196for construction {S" 12,533,722) and ·coostruclionmanagement
      (8303,474).                                                         .

      Djscussion

        The results onhe audit determined· that approximately 2 percentofthecOSlS. invoic.ed 'bythe'City
     . were. questionable because they were.not.adequately supported by accounting reoords.
        Specifically, whHethe ,$:12,533,722' invoiced forc.onstruction was .aIiowable, thdi3.03,;474
        irlv.oiced f6rconStructioD managementcoS!S (personnel servlccs;and fees) was not allocated
        betweenthe Recovery Act funded CBIS projeCt and the la,rger teI1l\bral Tenov.pon proJect. To
        resOlv~l)tis'issue, TSA WIll worle with the City.to·pro-rat"lhe~ costs hosed on tile perie.ntage·of
       .aCl\1al oasIS oflhe.Sl7 miUionCBffipr4jectcol11pared.t<>lhetota! cost'ofthdarger terminal
        renovation projee, $32 million, Based on this. &160,841 oflhe questioned construetfon
        nianagoinent'costS'{;f303,474} coull1 be aliocated.·IO the CBIS project, with $142;633. being
        allocated 10 tl:Ie .larger terminal·renovation projec~~ This adjustment will he .attained 'by TSA
     -rece;i.v.'i!lg a future. iov:alee from the Clty reflective .ora: $142,'6'33 reduction i?- cQsts,~

      Theaudil also determined.·that TSA officials·did.nol examinelbe Oity's.compliance.wilh the Bu.y
      Amerit:an Act, While mo~1 of. the lettel'S obtained by !hi: general contracror indicated ·tha~lhe
      goods "Were B.ny AmericanAet·complIant•.four leneI'S;iDdwat~ .that some. could .have been
      manufactured inforeigIi countries. WhiJe.Cityo'fflcials]>rovwed DID with a ~_wnmary.
      calculation from aschedule of, values ·showing that·aboul99 .7.% ofaU oflhe equipment.and
      matc:riaJ. components used in. the·CalS project wer.e ,made in. Ameriea..n · the 'schedule- didnot
      Itmlude·the names,ofthe.ve.ndQrs: that p[Qvided these' goods. As a reSUlt. 010.~ not able-to
      validate·ihOiCily's use ofB~ Am.rkan ActcompUant materi.ls, Tov.eritYih.tthe:goodi-used
      are Buy Atnetiean.Act compliant, TSAwillconductfilrther anaJ,ysi$to ~nsutelha\ the SChedule
      ofvaJues i:i1cLildes·tJie names·ofthe specifiQ vendors who provitled those materials.

      ·TSAconcurs-with both of the: recommendations made in. the·sutiject.draftIeport and will· take the
       actions necessary to ~olve_ these. issues.

      Recommendatiort 1:: TSNs-·Contrac.ting Officer resolve tbe.$303. t 474 ofun,lru.ppo,rred (osts.

      TSJ\..Concursl. A.-indiCated above. TSA will work with iIle City to pro-rate Ihe .s303,414of
      unsupj>-oned .constructio'n· management. C.osts based on the,percentage oJ actual casts:of:the
      $1"7:miUion OB1S proje.ct compared to the tofa\' cost of the largertcnninal r.enovauollpr,oject,
      $32 miHion. Based on .l11is, $] 60,8.41 oflhe questioned construction management COsts .
      (S303.474}:could reaJloci!ledto the CBIS project, with $142.613 heing alloeatedto·thedatger


                                                                                    .\




                Review of Costs Invoiced by the City of San Francisco Relating to the
 

         Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                                         Page 10
 

Appendix B
Management Comments to the Draft Report


                                                                                                               3·



      tenninal renovation project This ~j.ustmentwillbe'attained by TSA Tece~ving I;l future inYQice
      ftQm the City reflective oj ~ 'SH2;6331eduction in total reimbursable CBlS costs.

      ,Recommendation 2: TSAls, Contracting Officer'review ,the iron, steel, and manufactured
      .goods, used ',w-the CUTS proJ~ct to determinewhe,ther·the ,clty'ful,y"compii~d'wUh
      ap.pjicabh~'Buy Amedcan ,reguiremecnts,

      TSA Concurs.; While City officials PJO-vided the OIG with a summary calculation from a
      'schedule ·ofvalu.esJShowi~g that .approximately 99:11'ercent of all oflthe ,equipment and materia)
       compOnents used in the CBIS' project were made in America,. the ·Contracting Officer Will 'work
      with theTSA ~i.te lead to ensure that the,schedlile-,ofvalues'includes the names,ofthe-spec~c
      yendprs whp pr.ovid~d. tho'se materials 'in order to verif¥ that the_ goods ll-sed.a.re compliant with
      Bqy Al:neric:ao Act reguirements.

      Additionally. TSN'S Office ofAcquisition has developed a checklis!.to assist acquisition
      workforce s~ffinassessing.and monitoring Recoyel'Y Act recipieol,·complia·nce:withBuy
      American.Ac~~on:1.P!iance;. TSA.intends to jmplement use of this checklist within:90 days. This
      checklist Wl!'ipre.iQusly PJ.o.i'ded to DIG in an upgateto OIG"U -07. FinarRepot/; Use of
      Ameri.aan Re.coveryand ll'f!inyes'tmen.r A~ Funds by the XSA/or the Electrpn,ic BaggfJ$.e
      Screening PrbgriJm (Novemb.er 12.,20JOJ




                                                                                                                    .,




                Review of Costs Invoiced by the City of San Francisco Relating to the
 

         Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                                      Page 11
 

Appendix C
Major Contributors to this Report

                       Roger LaRouche, Director
                       Robert Leonard, Audit Manager
                       Karl Gallagher, Audit Manager




                Review of Costs Invoiced by the City of San Francisco Relating to the
 

         Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                               Page 12
 

Appendix D
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Departmental Recovery Act Coordinator
                       Acting General Manager, Checked Baggage Division/Program
                       Manager, Electronic Baggage Screening Program, TSA
                       Audit Liaison Official, TSA

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




                Review of Costs Invoiced by the City of San Francisco Relating to the
 

         Terminal 2 Checked Baggage Screening Project at San Francisco International Airport 

                Under Other Transaction Agreement Number HSTS04-09-H-REC123
 


                                               Page 13
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
